 Office of Inspector General
     Audit Report


   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2012 AND 2011
     National Transportation Safety Board

         Report Number: QC-2013-010
        Date Issued: November 8, 2012
U.S. Department of                                               Office of Inspector General
Transportation                                                   Washington, DC 20590

Office of the Secretary
of Transportation




November 8, 2012

The Honorable Deborah A. P. Hersman
Chairman
National Transportation Safety Board
490 L’Enfant Plaza SW
Washington, D.C. 20594

Dear Chairman Hersman:

I respectfully submit our report on the quality control review (QCR) of the
National Transportation Safety Board’s (NTSB) audited financial statements for
fiscal years 2012 and 2011.

The audit of NTSB’s financial statements as of and for the years ended
September 30, 2012, and September 30, 2011, was completed by Leon Snead &
Company, P.C., of Rockville, Maryland (see Enclosure), under contract to the
Office of Inspector General. The contract required the audit to be performed in
accordance with generally accepted Government auditing standards and Office of
Management and Budget Bulletin 07-04, “Audit Requirements for Federal
Financial Statements,” as amended.

Leon Snead & Company, P.C. concluded that the financial statements present
fairly, in all material respects, the financial position, net cost, changes in net
position, and budgetary resources of NTSB, as of and for the years ended
September 30, 2012, and September 30, 2011, in conformity with U.S. generally
accepted accounting principles. The report did not include any reportable internal
control deficiencies or instances of reportable noncompliance with laws and
regulations tested.

We performed a QCR of Leon Snead & Company, P.C.’s report and related
documentation. Our QCR, as differentiated from an audit performed in accordance
with generally accepted Government auditing standards, was not intended for us to

Report Number QC-2013-010
                                                                              2

express, and we do not express, an opinion on NTSB’s financial statements or
conclusions about the effectiveness of internal controls or compliance with laws
and regulations. Leon Snead & Company, P.C. is responsible for its report dated
November 5, 2012, and the conclusions expressed in that report. However, our
QCR disclosed no instances in which Leon Snead & Company, P.C. did not
comply, in all material respects, with generally accepted Government auditing
standards. Because Leon Snead & Company, P.C. did not make any
recommendations, a response to this report is not required.

We appreciate the cooperation and assistance of representatives of NTSB and
Leon Snead & Company, P.C. If we can answer any questions, please call me at
(202) 366-1407, or George Banks, Project Manager, at (410) 962-0186.


Sincerely,




Louis C. King
Assistant Inspector General for Financial and
 Information Technology Audits

Enclosure




Report Number QC-2013-010
National Transportation Safety Board
       Audit of Financial Statements

        As of and for the Years Ended
        September 30, 2012 and 2011




                     Submitted By
            Leon Snead & Company, P.C.
Certified Public Accountants & Management Consultants
                                     TABLE OF CONTENTS



                                                                                                                           Page

Independent Auditor’s Report............................................................................................. 1

Appendix, Agency Response to Report ............................................................................. 5

Financial Statements ........................................................................................................... 6

       Balance Sheet ............................................................................................................. 6

       Statement of Net Cost ................................................................................................. 7

       Statement of Changes in Net Position ........................................................................ 8

       Statement of Budgetary Resources ............................................................................. 9

       Notes to the Financial Statements ............................................................................ 10




                                                                  i
Inspector General, U. S. Department of Transportation
Chairman, National Transportation Safety Board


                               Independent Auditor's Report

We have audited the balance sheets of the National Transportation Safety Board (NTSB) as
of September 30, 2012 and 2011, and the related statements of net cost, changes in net
position, and budgetary resources (the financial statements) for the years then ended . The
objective of our audit was to express an opinion on the fair presentation of those financial
statements. In connection with our audit, we also considered the NTSB's internal control
over financial reporting and tested the NTSB's compliance with certain provisions of
applicable laws and regulations that could have a direct and material effect on its financial
statements.

SUMMARY

As stated in our opinion on the financial statements, we found that the NTSB's financial
statements as of and for the years ended September 30, 2012 and 2011, are presented fairly,
in all material respects, in conformity with accounting principles generally accepted in the
United States of America.

Our consideration of internal control would not necessarily disclose all deficiencies in
internal control over financial reporting that might be material weaknesses under standards
issued by the American Institute of Certified Public Accountants. However, our testing of
internal control identified no material weaknesses in financial reporting.

The results of our tests of compliance with certain provisions of laws and regulations disclosed
no instance of noncompliance that is required to be reported herein under Government Auditing
Standards, issued by the Comptroller General of the United States and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements (as
amended).

The following sections discuss in more detail our opinion on the NTSB's financial
statements, our consideration of the NTSB's internal control over financial reporting, our
tests of the NTSB's compliance with certain provisions of applicable laws and regulations,
and management's and our responsibilities.
OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the NTSB as of September 30, 2012 and
2011, and the related statements of net cost, changes in net position, and budgetary resources
for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position, net cost, changes in net position, and budgetary resources of the NTSB as
of and for the years ended September 30, 2012 and 2011, in conformity with accounting
principles generally accepted in the United States of America.

Accounting principles generally accepted in the United States of America require that
Management’s Discussion and Analysis be presented to supplement the basic financial
statements. Such information, although not a part of the basic financial statements, is required
by the Federal Accounting Standards Advisory Board (FASAB) who considers it to be an
essential part of financial reporting for placing the basic financial statements in an appropriate
operational, economic, or historical context. We have applied certain limited procedures to the
required supplementary information and required supplementary stewardship information in
accordance with auditing standards generally accepted in the United States of America, which
consisted of inquiries of management about the methods of preparing the information and
comparing the information for consistency with management’s responses to our inquiries, the
basic financial statements, and other knowledge we obtained during our audit of the basic
financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to
express an opinion or provide any assurance.

RESPONSIBILITIES

Management Responsibilities

Management of the NTSB is responsible for: (1) preparing the financial statements in
conformity with generally accepted accounting principles; (2) establishing, maintaining, and
assessing internal control to provide reasonable assurance that the broad control objectives of
the Federal Managers Financial Integrity Act (FMFIA) are met; and (3) complying with
applicable laws and regulations. In fulfilling this responsibility, estimates and judgments by
management are required to assess the expected benefits and related costs of internal control
policies.

Auditor Responsibilities

Our responsibility is to express an opinion on the financial statements based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
07-04, Audit Requirements for Federal Financial Statements (as amended). Those standards




Leon Snead & Company, P.C.                       2
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

An audit includes (1) examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements; (2) assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our audit, we considered the NTSB’s internal control over financial
reporting by obtaining an understanding of the agency’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of
controls in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial statements.

We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin 07-04 (as amended) and Government Auditing Standards. We did
not test all internal controls relevant to operating objectives as broadly defined by FMFIA. Our
procedures were not designed to provide an opinion on internal control over financial reporting.
Consequently, we do not express an opinion thereon.

As part of obtaining reasonable assurance about whether the agency’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, and significant provisions of contracts, noncompliance with which could
have a direct and material effect on the determination of financial statement amounts, and
certain other laws and regulations specified in OMB Bulletin 07-04, (as amended). We
limited our tests of compliance to these provisions and we did not test compliance with all
laws and regulations applicable to the NTSB. Providing an opinion on compliance with
certain provisions of laws, regulations, and significant contract provisions was not an objective
of our audit and, accordingly, we do not express such an opinion.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the financial statements of the NTSB as of and for the
years ended September 30, 2012 and 2011, in accordance with auditing standards generally
accepted in the Unites States of America, we considered the NTSB’s internal control over
financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the NTSB’s internal control. Accordingly, we do
not express an opinion on the effectiveness of the NTSB’s internal control.

Because of inherent limitations in internal controls, including the possibility of management
override      of     controls,     misstatements,      losses,     or     noncompliance        may
nevertheless occur and not be detected. A control deficiency exists when the design or operation of
a control does not allow management or employees, in the normal course of performing their
assigned functions, to prevent or detect misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable



Leon Snead & Company, P.C.                      3
possibility that a material misstatement of the financial statements will not be prevented or detected
and corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance of the NTSB.

Our consideration of internal control was for the limited purpose described in the first
paragraph in this section of the report and would not necessarily identify all deficiencies in
internal control that might be deficiencies, significant deficiencies or material weaknesses. We
did not identify any deficiencies in internal control that we consider to be material weaknesses,
as defined above.

COMPLIANCE WITH LAWS AND REGULATIONS

The results of our tests of compliance with certain provisions of laws and regulations, as
described in the Responsibilities section of this report, disclosed no instance of noncompliance
with laws and regulations that is required to be reported under Government Auditing Standards
and OMB Bulletin 07-04, (as amended).

AGENCY COMMENTS

The Chief Financial Officer, National Transportation Safety Board advised in a response, dated
November 5, 2012, that the agency has reviewed the draft fiscal years 2012 and 2011 financial
statement audit report, and the agency concurs with the facts and conclusions in the report.

DISTRIBUTION

This report is intended solely for the information and use of the management, the NTSB Board,
the Office of Inspector General, and others within the NTSB, OMB, and Congress, and is not
intended to be and should not be used by anyone other than these specified parties.

Leon Snead & Company, P.C.
November 5, 2012




Leon Snead & Company, P.C.                        4
                                                                                    Appendix




                                        National Transportation Safety Board
                                                           Washington, D.C. 20594



Office of the Chief Financial Officer




                                        November 5, 2012




TO:              Leon Snead
                 Partner

FROM:            Steven E. Goldberg
                 Chief Financial Officer

SUBJECT:         DRAFT AUDIT REPORT
                 Fiscal Year 2012 and 2011 Financial Statement Audit Report


The National Transportation Safety Board (NTSB) has reviewed the draft fiscal years
2012 and 2011 Financial Statement Audit Report and we concur with the facts and
conclusions in the report. We will share the final audit report with senior officials, other
interested program managers and staff.

Please convey my appreciation to everyone on your staff who worked diligently on our
financial statement audit. If you have any questions or comments, please contact me or
Edward Benthall at (202) 314-6241.



cc:     George Banks, Program Director,
        Financial Audits, DOT OIG




                                               5
                     NATIONAL TRANSPORTATION SAFETY BOARD
                                       Balance Sheet
                           As of September 30, 2012 and 2011




Assets                                                        FY 2012              FY 2011
 Intragovernmental:
   Fund balance with Treasury                           $         40,789,655   $     38,861,943
 Total Intragovernmental Assets                         $         40,789,655   $     38,861,943

  Accounts receivable                                   $              5,355   $          4,366
  Property and equipment, net                                     15,037,419         15,425,571
                                                        $         15,042,774   $     15,429,937

 Total Assets                                           $         55,832,429   $     54,291,880

Liabilities
 Intragovernmental:
   Accounts payable                                     $             54,929   $        149,202
   Other liabilities                                               1,581,327          1,363,332
 Total Intragovernmental                                $          1,636,256   $      1,512,534

  Accounts payable                                      $            464,667   $      2,222,021
  Federal Employee Benefits                                        6,855,243          6,743,644
  Capital lease liability                                         16,285,725         16,937,062
  Other Liabilities                                                6,214,278          6,138,326

 Total Liabilities                                      $         31,456,169   $     33,553,587


Net Position
  Unexpended appropriations                             $         33,189,773 $       29,354,347
  Cumulative results of operations                                (8,813,513)        (8,616,054)
 Total Net Position                                     $         24,376,260 $       20,738,293

 Total Liabilities and Net Position                     $         55,832,429   $     54,291,880




            The accompanying notes are an integral part of these statements.
                                           6
                         NATIONAL TRANSPORTATION SAFETY BOARD
                                       Statement of Net Cost
                         For the Months Ending September 30, 2012 and 2011


                                                            FY 2012                         FY 2011


                                                         Aviation Safety                 Aviation Safety

Gross costs                                                         51,535,796 $                  50,580,075
Less: Earned Revenue                                                (1,190,882)                   (1,333,074)
Net Costs                                        $                  50,344,914 $                  49,247,001



                                                      Surface Transportation          Surface Transportation
                                                              Safety                          Safety
Gross costs                                      $                  30,131,844 $                  29,691,860
Less: Earned Revenue                                                  (625,189)                     (663,138)
Net Costs                                        $                  29,506,655 $                  29,028,722




                                                   Research & Engineering   Research & Engineering
Gross costs                                      $              19,542,161 $            18,570,778
Less: Earned Revenue                                              (398,303)               (405,674)
Net Costs                                        $              19,143,858 $            18,165,104

Net Cost of
 Operations                                      $                  98,995,427   $                96,440,827




                   The accompanying notes are an integral part of these statements.
                                                  7
                                               NATIONAL TRANSPORTATION SAFETY BOARD
                                                Consolidated Statement of Changes in Net Position
                                               For the Months Ending September 30, 2012 and 2011

                                                        FY 2012                       FY 2011
                                                   Cumulative Results of         Cumulative Results of
                                                      Operations                    Operations
Beginning Balances                                             ($8,616,054)                  ($9,090,865)
  Prior period adjustments (+/-)                                         -                             -
Beginning balances, as adjusted                                ($8,616,054)                  ($9,090,865)

Budgetary Financing Sources:
  Appropriations used                                           $95,346,330                  $93,208,249

Other Financing Sources:
  Imputed financing from costs absorbed by
  others                                                          3,451,638                    3,707,389
Total Financing Sources                                         $98,797,968                  $96,915,638

Net Cost of Operations (+/-)                                   ($98,995,427)                ($96,440,827)

Net Change                                                        ($197,459)                    $474,811

Cumulative Results of Operations                                ($8,813,513)                 ($8,616,054)

                                                        FY 2012                        FY 2011
                                                Unexpended Appropriations      Unexpended Appropriations
Beginning Balances                                            $29,354,347                    $25,889,307
  Prior period adjustments (+/-)                                      -                              -
Beginning balances, as adjusted                               $29,354,347                    $25,889,307

Budgetary Financing Sources:
  Appropriations received                                      $102,400,000                  $97,853,900
  Other adjustments (rescissions, etc) (+/-)                     (3,218,244)                  (1,180,611)
  Appropriations used                                           (95,346,330)                 (93,208,249)
Total Budgetary Financing Sources                                $3,835,426                   $3,465,040

Total Unexpended Appropriations                                 $33,189,773                  $29,354,347

Net Position                                                    $24,376,260                  $20,738,293




                     The accompanying notes are an integral part of these statements.




                                                                      8
                                  NATIONAL TRANSPORTATION SAFETY BOARD
                                           Statement of Budgetary Resources
                                  For the Months Ending September 30, 2012 and 2011



                                                                              FY12                 FY11
Budgetary Resources
Unobligated balance brought forward, October 1                                      20,542,555       18,476,412
Recoveries of prior year obligations                                                 1,968,875        2,548,137
Other changes in unobligated balance                                                (3,218,243)      (1,180,611)
Unobligated balance from prior year budget authority, net                           19,293,187       19,843,938
Appropriations                                                                     102,400,000       97,853,900
Spending authority from offsetting collections:                                      2,338,229        2,524,076
Total Budgetary Resources                                                          124,031,416      120,221,914

Status of Budgetary Resources
Obligations Incurred                                                               105,935,302       99,679,359
Unobligated balance
  Apportioned                                                                        7,464,230        8,906,028
  Unapportioned                                                                     10,631,884       11,636,527
Unobligated balance, end of year                                                   124,031,416      120,221,914

Change in Obligated Balances
Unpaid obligations, brought forward, October 1                                      18,319,388       20,090,160
Obligations Incurred                                                               105,935,302       99,679,359
Gross outlays                                                                      (99,592,273)     (98,901,994)
Recoveries of prior year unpaid obligations, net                                    (1,968,875)      (2,548,137)

Unpaid obligations, end of year                                                      22,693,542      18,319,388

Budget Authority and Outlays, net
 Budget Authority, Gross                                                           104,738,229      100,323,753
 Actual offsetting collections                                                      (2,338,229)      (2,469,853)
Budget Authority, Net                                                              102,400,000       97,853,900

 Gross Outlays                                                                       99,592,273      98,901,994
 Actual offsetting collections                                                       (2,338,229)     (2,524,077)
Net Outlays                                                                          97,254,044      96,377,917



                             The accompanying notes are an integral part of these statements.




                                                            9
Note 1
SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity

The accompanying financial statements present the financial position, net cost of operations, changes in
net position and budgetary resources of the National Transportation Safety Board (NTSB). The NTSB is
an independent agency charged with determining the probable cause(s) of transportation accidents and
promoting transportation safety. The financial activity presented relates primarily to the execution of the
NTSB’s congressionally approved budget. The NTSB began operations in 1967 and, although
independent, it relied on the U.S. Department of Transportation (DOT) for funding and administrative
support. In 1975, under the Independent Safety Board Act, all organizational ties to DOT were severed.
The NTSB is not part of DOT, or affiliated with any of its modal agencies. The laws specific to the
Board are located in Chapter VIII, Title 49 of the Code of Federal Regulations.

Basis of Accounting and Presentation

These financial statements reflect both accrual and budgetary accounting transactions. Under the accrual
method of accounting, revenues are recognized when earned and expenses are recognized as incurred,
without regard to receipt or payment of cash. Budgetary accounting is designed to recognize the
obligation of funds according to legal requirements. Budgetary accounting is essential for compliance
with legal constraints and controls over the use of Federal funds.

These financial statements have been prepared from the books and reports of NTSB in accordance with
U.S. generally accepted accounting principles (GAAP) for the Federal government and the Office of
Management and Budget (OMB) Circular A-136.

Assets

Intragovernmental assets are those assets that arise from transactions with other Federal entities. Entity
assets are available for use by the entity in its operations while nonentity assets are assets held by the
entity but not available for use by the entity in its operations.




                                                   10
Fund Balance with U.S. Treasury

The NTSB does not maintain cash in commercial bank accounts. The U.S. Treasury processes cash
receipts and disbursements. Funds with the U.S. Treasury consist of appropriated and deposited funds
that are available to pay current liabilities and finance authorized purchase commitments.

Accounts Receivable

NTSB’s accounts receivable represent amounts due from overpayments to current and non-current
employees and from vendors. NTSB maintains an allowance for doubtful accounts for public receivables
based on past collection experience. The allowance for doubtful accounts is reviewed and adjusted
quarterly.

Property and Equipment

General Property and Equipment

The Office of the Chief Financial Officer has established a capitalization policy for general property and
equipment (P&E). General P&E is reported at acquisition cost. The capitalization threshold is
established at $25,000. General P&E consists of items that are used by NTSB to support its mission.
Depreciation on these assets is calculated using the straight-line method.

The land and buildings in which the NTSB operates are primarily leased from commercial entities. The
General Services Administration (GSA) provides some of the facilities occupied by the NTSB. GSA
charges the NTSB a Standard Level Users Charge (SLUC) that approximates the commercial rental rates
for similar properties.

Leasehold Improvements

The NTSB capitalization policy for leasehold improvements has established a capitalization threshold of
$100,000. A leasehold improvement is an improvement of a leased asset that increases the asset’s value.
Depreciation on these assets is calculated using the straight-line method with ten years as the estimated
useful life of the improvements or the remaining term of the lease, whichever is less.

Capital Lease Assets

Any Lease-to-Ownership Plans (LTOP) leases are classified as capital leases. The NTSB has two capital
leases. One lease is for space rental on the building that houses the NTSB Ashburn facility. This is a
twenty-year lease. Depreciation on the capital lease is calculated using the straight-line method with
twenty years, the term of the lease, as the estimated useful life of the capital lease.

The second lease is for copy machines used at all NTSB locations nationwide. This is a five-year lease.
Depreciation on the capital lease is calculated using the straight-line method with five years, the term of
the lease, as the estimated useful life of the capital lease.




                                                   11
Internal Use Software

The capitalization threshold of internal use software is established at $250,000. Only the costs associated
with the software development phase including labor are subject to capitalization. Software development
phase activities generally include the design of chosen path, including software configuration and
software interfaces, coding, installation to hardware and testing, including the parallel processing phase.
Internal use software includes software to operate NTSB programs and software used to produce NTSB
goods and services. Depreciation on these assets is calculated using the straight-line method with three
years as the estimated useful life of the asset.


Liabilities

Liabilities represent amounts that are likely to be paid by the NTSB as the result of transactions or events
that have already occurred; however, no liabilities are paid by the NTSB without an appropriation.
Intragovernmental liabilities arise from transactions with other Federal entities.

Accounts payable

Accounts payable consist of amounts owed for goods, services and other expenses received but not yet
paid.


Accrued Payroll and Benefits

Accrued Payroll and Benefits represents salaries, wages and benefits earned by employees, but not
disbursed as of September 30, 2012. Accrued payroll and benefits are payable to employees and are
therefore not classified as intragovernmental.

Annual, Sick, and Other Leave

Annual leave is recognized as an expense and as a liability as it is earned; the liability is reduced as leave
is taken. Each year, the balance in the accrued annual, restored, and compensatory leave account is
adjusted to reflect current leave balances and pay rates. Sick leave and other types of non-vested leave
are expensed as taken.

Employee Retirement Plans

Civil Service Retirement System (CSRS) and Federal Employees Retirement System (FERS)
NTSB employees participate in one of two retirement programs, either the CSRS or the FERS, which
became effective on January 1, 1987. Most NTSB employees hired after December 31, 1983, are
automatically covered by FERS and Social Security.

For CSRS covered employees, the NTSB withheld 7.0% of gross earnings. The NTSB matches the
withholding, and the sum of the withholding and the matching funds is transferred to the Civil Service
Retirement System.

For each fiscal year the Office of Personnel Management (OPM) calculates the U.S. Government’s
                                                    12
service costs for covered employees, which is an estimate of the amount of funds that, if accumulated
annually and invested over an employee’s career, would be enough to pay that employee’s future benefits.
Since the U.S. Government’s estimated FY 2012 service cost exceeds contributions made by employer
agencies and covered employees, the plan is not fully funded by the NTSB and its employees. As of
September 30, 2012, NTSB recognized $3.5 million as an imputed cost and as an imputed financing
source for the difference between the estimated service cost and the contributions made by NTSB and its
employees.

FERS contributions made by employer agencies and covered employees exceed the U.S. Government’s
estimated FY 2012 service cost. For FERS covered employees the NTSB made contributions of 11.9% of
basic pay. Employees contributed .80% of gross earnings. Employees participating in FERS are covered
under the Federal Insurance Contribution Act (FICA) for which the NTSB contributes a matching amount
to the Social Security Administration.

Thrift Savings Plan (TSP)
Employees covered by CSRS and FERS are eligible to contribute to the U.S. Government’s TSP,
administered by the Federal Retirement Thrift Investment Board. The NTSB makes a mandatory
contribution of 1% of basic pay for FERS-covered employees. In addition, NTSB makes matching
contributions, of up to 5% of basic pay, for employees who contribute to the Thrift Savings Plan.
Contributions are matched dollar for dollar for the first 3 percent of pay contributed each pay period and
50 cents on the dollar for the next 2 percent of pay. There are no percentage limits on contributions for
FERS participants. There are no percentage limits for CSRS participants, but there is no governmental
matching contribution. The maximum amounts that either FERS or CSRS employees may contribute to
the plan in calendar year 2012 is $17,000.

The NTSB financial statements do not report CSRS or FERS assets, accumulated plan benefits, or
unfunded liabilities, if any, which may be applicable to NTSB employees and funded by NTSB. Such
reporting is the responsibility of OPM.

Contingencies

A contingency is an existing condition, situation, or set of circumstances involving uncertainty as to
possible gain or loss. The uncertainty will ultimately be resolved when one or more future events occur
or fail to occur. A contingent liability is recognized when a past event or exchange transaction has
occurred, and a future outflow or other sacrifice of resources is measurable and probable. A contingency
is not disclosed in the Notes to the Financial Statements when any of the conditions for liability
recognition are met but the chance of a future event occurring is remote. A contingency is disclosed in
the Notes to the Financial Statements when any of the conditions for liability recognition are not met and
the chance of the future confirming event or events occurring is more than remote but less than probable.




                                                  13
The NTSB is not a party to any legal actions that are likely to result in a material liability. Accordingly,
no provision for loss is included in the financial statements.

Revenues and Other Financing Sources
Appropriations

Most of NTSB’s operating funds are provided by congressional appropriations of budget authority. The
NTSB receives appropriations on annual, multi-year, and no-year bases. NTSB receives financial
resources from the following appropriations:

Annual Salaries and Expenses Appropriation
Annual one-year appropriations are provided by Congress and are available for obligation in the fiscal
year for which it was provided to fund the overall operation of the NTSB.

Supplemental Salaries and Expenses Appropriation
Supplemental appropriations provided by Congress to fund extraordinary investigations.

Two Year Appropriation for Lease Renewal Expenses
For FY 2010, Congress appropriated $2,416,000 to fund one-time expenses associated with renewing the
lease for NTSB’s Washington, DC headquarters. The funding was available for obligation in FY2010
and FY2011.

Two Year Appropriation
For FY2011 Congress appropriated $2.4 million. The funding is available for obligation in FY2011 and
FY2012.

No Year Emergency Fund Appropriation
A no-year Emergency Fund appropriation was provided by the Congress to fund extraordinary accident
investigation costs. Emergency Fund disbursements are made at the discretion of the NTSB, but must be
reported to the Congress. A no-year appropriation is available for obligation without fiscal year
limitation. The NTSB’s Emergency Fund currently is appropriated at $1,997,884.



Imputed Financing Sources
In accordance with OMB Bulletin No. A-136, all expenses should be reported by agencies whether or not
these expenses would be paid by the agency that incurs the expense. The amounts for certain expenses of
the NTSB, which will be paid by other Federal agencies, are recorded in the “Statement of Net Cost.” A
corresponding amount is recognized in the “Statement of Changes in Net Position” as an “Imputed
Financing Source.” These imputed financing sources primarily represent unfunded pension costs of
NTSB employees.




                                                   14
Statement of Net Cost

Sub-Organization Program Costs
The NTSB Statement of Net Cost is presented by Responsibility Segment. These Responsibility
Segments are based on the NTSB’s mission and funding sources. The major programs that comprise the
Responsibility Segments are: Aviation Safety, Surface Transportation Safety, and Research and
Engineering.

Earned Revenue

Earned revenues collected by NTSB include amounts collected for training programs, rental of conference
room space, subleasing of office space, and for investigative related services.

Net Position

Net position is the residual difference between assets and liabilities and comprises Unexpended
Appropriations and Cumulative Results of Operations.

Unexpended appropriations include appropriations not yet obligated or expended, represented by the
unobligated balances and undelivered orders of NTSB’s appropriated funds. Multi-year appropriations
remain available to NTSB for obligation in future periods. Unobligated balances associated with
appropriations that expire at the end of the fiscal year remain available for obligation adjustments, but not
for new obligations, until that account is closed, five years after the appropriations expire. Cumulative
Results of Operations is the Net Result of NTSB’s operations since inception.

Use of Estimates

The preparation of financial statements in accordance with the accounting principles described above
requires management to make estimates and assumptions that affect the amounts reported in the financial
statements and accompanying footnotes. Actual results could differ from those estimates.




                                                   15
    Note 2
    FUND BALANCES WITH THE U.S. TREASURY

    U.S. Treasury processes NTSB cash receipts and disbursements. Non-Federal receipts are deposited in
    commercial banks, which transfer the receipts to the U.S. Treasury. Funds with the U.S. Treasury
    represent appropriated funds and funds received in exchange for providing services. These funds are
    available to finance expenditures.

    Fund Balance with the U.S. Treasury

Funds                    Entity      Non-Entity      Total               Entity         Non-Entity     Total
                        FY 2012       FY 2012       FY 2012             FY 2011          FY 2011      FY 2011

Intragovernmental:
Appropriated Funds $ 40,789,655      $      -     $ 40,789,655      $    38,861,943 $           -    $ 38,861,943



Unavailable                     -           -              -                      -             -             -
Receipts



Total                 $ 40,789,655   $      -     $ 40,789,655      $    38,861,943 $           -    $ 38,861,943




              Status of Fund Balance with Tre asury            FY 2012                FY 2011

              Unobligated Balance
                     Available                                    $7,464,230            $8,906,028
                     Unavailable                                  10,631,883            11,636,527
              Obligated Balance Not Yet Disbursed                 22,693,542            18,319,388

              Total                                              $40,789,655           $38,861,943




                                                     16
Note 3
ACCOUNTS RECEIVABLE

NTSB’s accounts receivable represent amounts due from overpayments to current and non-current
employees and from vendors. NTSB maintains an allowance for doubtful accounts for public receivables
based on past collection experience. NTSB estimates the allowance for doubtful accounts based on the
following agency schedule.

                                    Days Outstanding                Percentage
                                    0-120                           0%
                                    Over 120 Days                   100%


The allowance for doubtful accounts is reviewed and adjusted quarterly.

                Interagency    Public       Total        Interagency      Public       Total
                FY 2012        FY 2012      FY 2012      FY 2011          FY 2011      FY 2011
Gross            $         -    $     97,819 $    97,819 $          -      $     99,027 $    99,027
Receivables
Allowance for   $          -    $    92,464    $        92,464 $     -     $    94,661   $   94,661
Loss
Net             $          -    $      5,355   $         5,355 $     -     $     4,366   $    4,366
Receivables




                                                   17
            Note 4
            PROPERTY AND EQUIPMENT, NET

            Property and equipment consisted of the following as of September 30, 2012 and 2011:

            Property and Equipment


Classes of Fixed     Service   Acquisition     Accumulated Net Book             Acquisition       Accumulated Net Book
Assets               Life      Value           Depreciation Value               Value             Depreciation Value
                     (Years)   FY 2012         FY 2012      FY 2012             FY 2011           FY 2011      FY 2011
Desktop and
laptop computers
and peripherals          3      $    544,220 $       463,629 $        80,591    $    544,220 $         281,891 $     262,329
Other ADP and
Tele-comm
equipment
(servers, routers)       5      $    320,223 $       238,651 $        81,572    $    480,073 $         332,867 $     147,206

Furniture                5      $    731,128 $       731,128 $             -    $    731,128 $         731,128 $         -

Investigative
equipment                5      $ 2,284,663     $    775,959 $ 1,508,704        $ 1,266,502       $    420,913 $     845,589
Internal Use
Software                 3      $ 2,178,105     $ 2,165,620      $    12,485    $ 2,178,105       $ 2,149,355    $    28,750

Leasehold
Improvements            10      $    628,163 $       628,163 $             -    $    628,163 $         628,163 $         -
Capital lease
(building)              20      $ 23,731,941    $ 10,779,261     $ 12,952,680   $ 23,731,941      $ 9,590,244    $14,141,697

Capital lease
(Office
Equipment)               5      $    437,833 $        36,446     $    401,387 $               -   $         -    $       -

Totals                          $ 30,856,276    $ 15,818,857     $ 15,037,419   $ 29,560,132      $ 14,134,561   $15,425,571




                                                            18
Note 5
ACCRUED FECA LIABILITY

The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to
covered Federal civilian employees injured on the job, employees who have incurred a work-related
occupational disease, and beneficiaries of employees whose death is attributable to a job-related injury or
occupational disease. Claims incurred for benefits for NTSB employees under FECA are administered by
the Department of Labor (DOL) and are ultimately paid by the NTSB.

FECA liability includes two components: (1) the accrued liability which represents money owed for
claims paid by the DOL through the current fiscal year, for which billing to and payment by the NTSB
will occur in a subsequent fiscal year, and (2) the liability for future costs which represents the expected
liability for approved compensation cases beyond the current fiscal year. Estimated future costs have been
actuarially determined, and are regarded as a liability to the public because neither the costs nor
reimbursement have been recognized by DOL. FECA liability is included in Liabilities Not Covered by
Budgetary Resources, as described in Note 7.

The NTSB accrues liabilities based on estimates of funds owed to other Federal government entities for
services provided, but not yet billed. The accruals for Workers Compensation and Unemployment
Compensation represent the estimated liability for the current fiscal year; for money owed, but not billed;
and for claims, which were paid by the Department of Labor, but not yet billed to the NTSB.




                                                  19
Note 6
ACCRUED ANNUAL LEAVE

Accrued annual leave consists of employees’ unpaid leave balances at September 30, 2012 and reflects
wage rates in effect at quarter end. Accrued annual leave is included in Liabilities Not Covered by
Budgetary Resources, as covered in Note 7.

Note 7
LIABILITIES COVERED AND NOT COVERED BY BUDGETARY RESOURCES

Liabilities Not Covered by Budgetary Resources result from the receipt of goods and services, or the
occurrence of events, for which appropriations, revenues, or other financing sources necessary to pay the
liabilities have not yet been made available through Congressional appropriation. These include FECA
and annual leave liability. Liabilities Covered by Budgetary Resources are those for which budgetary
resources are available in the current fiscal year. NTSB’s liabilities covered and not covered by
budgetary resources are as follows:

Liabilities Covered and Not Covered by Budgetary Resources

      Liabilities Covered by Budgetary Resources                      FY 2012                  FY 2011
      Employer Contribution and Payroll Taxes Payable                   $259,931                 $244,460
      Accounts Payable                                                   519,596                2,371,223
      Accrued Payroll                                                  1,117,113                  971,467
      Capital Lease Liability                                            403,076                        -
      Total Liabilities Covered by Budgetary Resources               $2,299,716               $3,587,150

      Liabilities Not Covered by Budgetary Resources
      Capital Lease Liability                                         15,882,649               16,937,062
      Accrued Unfunded Annual Leave                                    5,057,766                4,922,399
      Actuarial FECA Liability                                         6,855,243                6,743,644
      Accrued Unfunded FECA Liability                                  1,360,795                1,363,332
      Total Liabilities Not Covered by Budgetary Resources           29,156,453               29,966,437

      Total Liabilities Covered and Not Covered by Budgetary
      Resources                                                     $31,456,169              $33,553,587




                                                  20
Liabilities Covered and Not Covered by Budgetary Resources
Intragovernmental and Non-Intragovernmental

     Intragovernmental                                       FY 2012              FY 2011
     Accounts Payable                                   $            54,929   $          149,202
     Other Liabilities                                            1,581,327             1,363,332
     Total Intragovernmental                            $        1,636,256    $        1,512,534

     Accounts Payable                                   $           464,667   $         2,222,021
     Accrued Payroll                                              1,117,113               971,467
     Employer Contribution and Payroll Taxes Payable                 39,399               244,460
     Capital Lease Liability                                     16,285,725            16,937,062
     Accrued Unfunded Annual Leave                                5,057,766             4,922,399
     Actuarial FECA Liability                                     6,855,243             6,743,644
     Total Non-Intragovernmental                                29,819,913            32,041,053
     Total Liabilities Covered and Not Covered by
     Budgetary Resources                                $       31,456,169    $       33,553,587




                                                21
Note 8
LEASES

The NTSB has commitments under cancelable leases for office space. These leases have terms that
extend up to 10 years. The majority of buildings in which the NTSB operates are leased from commercial
companies. Under their lease agreement with the General Services Administration (GSA), the NTSB is
charged rent that is intended to approximate commercial rental rates.

The NTSB has a 20-year capital lease for the Ashburn facility space which was entered into during 2001.
The total future payments disclosed for the Ashburn facility include estimates for services and utilities.

The NTSB also has a 5-year capital lease for Lexmark copy machines which was entered into during
2012. The total future payments disclosed for the copy machines include estimates for service.

Future Capital Lease Payments


Fiscal Ye ar                        Space Re ntal    Space Re ntal
                                    FY 2012          FY 2011
2012                                   $         -            2,521,440
2013                                       2,694,984          2,521,440
2014                                       2,694,984          2,521,440
2015                                       2,694,985          2,521,440
2016                                       2,694,985          2,521,440
2017                                       2,622,674          2,521,440
2018 and beyond                           14,708,400         14,708,400
Total Future Le ase Payme nts          $28,111,012        $29,837,040
Less: Imputed Interest                   (5,105,367)        (5,965,833)
Less: Executory Costs (Maintenance)      (6,719,920)        (6,934,145)
Ne t Capital Le ase Liability          $16,285,725        $16,937,062

In 2003 NTSB determined that the Ashburn facility lease should be recorded as a capital lease.
Capitalizing the full net present value of the Ashburn facility lease created a deficiency in 2001 funds.
This deficiency was reported to OMB and Congress. OMB has provided guidance on future funding and
reporting of this liability. With the cancellation of the FY 2001 appropriation at September 30, 2006, the
budgetary accounts no longer reflect a deficiency situation. The related asset, liability, and amortization
will remain on the general ledger until the lease is fully liquidated. Annual Appropriation acts now
include language to provide funds to make lease payments due in the current fiscal year.

The lease liability not covered by budgetary resources at September 30, 2012 is $15,882,649.

The NTSB has operating leases for postage meters and vehicles. Postage meters are leased on an annual
basis. These leases are cancelable or renewable on an annual basis at the option of NTSB. They do not
impose binding commitments on NTSB for future rental payments on leases with terms longer than one
year.




                                                  22
Future operating payments due are as follows:


Future Operating Lease Payments at September 30, 2012

Fiscal Ye ar                          Space Re ntal-               Space Re ntal-
                                      He adquarte rs               He adquarte rs
                                       and Re gional               and Re gional
                                          Office s                    Office s
                                         FY 2012                     FY 2011
2012                                 $              -                     8,895,327
2013                                         8,962,976                    8,794,920
2014                                         8,877,218                    8,709,162
2015                                         8,687,670                    8,600,249
2016                                         8,733,909                    8,646,488
2017                                         8,827,691                    8,740,270
2018 and beyond                             28,655,868                   28,284,328
Total Future Le ase payme nts        $    72,745,332             $     80,670,744

NTSB signed a new ten year lease in August 2010.

GSA vehicle leases are cancelable at any time without penalty and are not included in Future Operating
Lease Payments information.

Future Lease Receipts

In August 2007, NTSB signed two sub-lease agreements to provide certain office space beginning in
September 2007.

The first is with the Transportation Security Administration (TSA) for a period of ten years beginning
October 1, 2008. The Sub-Lessee may cancel this agreement after the first twelve months with 120 days
notice without penalty. This agreement will result in the receipt of $597,746 over the twelve-month lease
term in accordance with amendment #4, paid quarterly. The Sub-Lessee rental rate will be annually
adjusted by a reconciliation of Operating costs and taxes corresponding with increases to the Consumer
Price Index (CPI) Cost of Living index.

In June 2008, NTSB signed a sub-lease agreement with the Department of Homeland Security (DHS) to
provide certain office space beginning June 16, 2008.

This sub-lease was for the initial period of June 16, 2008 to September 30, 2008 with four option years,
paid quarterly in advance. This agreement resulted in the receipt of $327,200 over the twelve-month
lease term. The Sub-Lessee rental rate will be annually adjusted by a reconciliation of Operating costs
and taxes corresponding with increases to the Consumer Price Index (CPI) Cost of Living index.




                                                  23
             Future Lease Receipts at September 30, 2012

         Fiscal Year                           TSA
         2013                            $            597,746
         2014                                         597,746
         2015                                         597,746
         2016                                         597,746
         2017                                         597,746
         2018 and beyond                                    -
         Total Future Lease
         Receipts                        $          2,988,730

             Future Lease Receipts at September 30, 2011

Fiscal Year                         TSA                    DHS
2012                          $           564,015    $           327,200
2013                                      564,015                      -
2014                                      564,015                      -
2015                                      564,015                      -
2016                                      564,015                      -
2017 and beyond                           564,015                      -
Total Future Lease
Receipts                      $        3,384,090     $          327,200




                               24
Note 9
STATEMENT OF NET COST
Intragovernmental and Public Costs


Fiscal Year 2012           Aviation              Surface           Research &        Consolidated
                           Safety                Safety            Engineering       Totals
Intragovernmental Gross     $    13,879,962       $    8,631,069    $    5,376,854    $ 27,887,885
Costs
Less: Intragovernmental              (739,963)         (367,079)         (228,677)      (1,335,719)
Earned Revenue
Intragovernmental Net       $    13,139,999           $8,263,990        $5,148,177      $26,552,166
Costs

Gross Costs with the        $    37,655,834       $ 21,500,775      $ 14,165,307      $ 73,321,916
Public
Less: Earned Revenues                (450,919)         (258,110)         (169,626)        (878,655)
from the Public
Net Costs with the          $    37,204,915       $ 21,242,665      $ 13,995,681      $ 72,443,261
Public

Net Cost of
Operations                  $ 50,344,914          $29,506,655       $ 19,143,858      $ 98,995,427


Fiscal Year 2011           Aviation              Surface           Research &        Consolidated
                           Safety                Safety            Engineering       Totals
Intragovernmental Gross     $    12,036,882       $    7,292,962    $    4,337,932    $ 23,667,776
Costs
Less: Intragovernmental              (927,337)         (386,593)         (229,950)      (1,543,880)
Earned Revenue
Intragovernmental Net       $    11,109,545           $6,906,369        $4,107,982      $22,123,896
Costs

Gross Costs with the        $    38,543,193       $ 22,398,898      $ 14,232,845      $ 75,174,936
Public
Less: Earned Revenues                (405,737)         (276,545)         (175,723)        (858,005)
from the Public
Net Costs with the          $    38,137,456       $ 22,122,353      $ 14,057,122      $ 74,316,931
Public

Net Cost of
Operations                  $ 49,247,001          $29,028,722       $ 18,165,104      $ 96,440,827


                                             25
Note 10
STATEMENT OF BUDGETARY RESOURCES

The Statement of Budgetary Resources compares budgetary resources with the status of those resources.
For September 30, 2012, and September 30, 2011, respectively, budgetary resources were $124 million
and $120 million; net outlays for the year were $97 million and $96 million; direct obligations incurred
against amounts apportioned under Category A were $104 million and $98 million; and the amount of
direct obligations incurred against amounts apportioned under Category B were $2 million and $2
million.


                                          FY 2012                 FY 2011
Budgetary Resources                        $124,031,416            $120,221,914
Net Outlays                                  97,254,044              96,337,917
Category A Apportionments                   103,773,736              97,842,472
Reimbursable Category B                       2,161,566               1,836,887


The total of undelivered orders at September 30, 2012 and 2011 were $20.4 million and $14.7 million.




                                                 26
Note 11
EXPLANATION OF DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY
RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT

FY 2011                    Budgetary           Obligations          Offsetting           Net Outlays
Dollars in millions        Resources           Incurred             Receipts
Statement of
Budgetary Resources                     $120                 $99                    $-               $96
Unobligated Balance
Brought Forward                        $(20)                    -                    -                    -
Budget of the U.S.
Government                              $100                 $99                     -               $96
Differences                               $-                  $-                    $-                $-

Source: Appendix, United States Budget

FY 2011 is the latest year for which actual figures are available. The President’s Budget with actual
figures for FY 2012 has not yet been published. Actual figures for FY 2012 are expected to be available
in January 2013 and are expected to be found at http://www.whitehouse.gov/omb/.




                                                 27
Note 12
NET COST OF OPERATIONS VS. BUDGET


                                                                     FY 2012           FY 2011
 Resources Used to Finance Activities
 Obligations Incurred                                                  $105,935,302      $99,679,359
 Less: spending authority from offsetting collections and
 recoveries                                                              (4,307,104)      (5,072,214)
 Net obligations                                                        101,628,198        94,607,145
 Imputed financing from costs absorbed by others                           3,451,638        3,707,389
 Total resources used to finance activities                           $105,079,836      $98,314,534

 Resources Used to Finance Items not Part of the Net cost
 of operations
 Change in budgetary resources obligated for goods, services and
 benefits ordered but not yet provided                                   (5,661,589)      (1,738,479)
 Resources that fund expenses recognized in prior periods                  (653,875)      (1,061,910)
 Resources that finance the acquisition of assets                        (1,563,419)        (865,725)
 Total resources used to finance items not part of the net cost of
 operations                                                             (7,878,883)      (3,666,114)
 Total resources used to finance the net cost of operations            $97,200,953      $94,648,420

 Components of the Net Cost of Operations that will not
 require or generate Resources in the Current Period
 Other                                                                     (157,097)           76,349
 Depreciation and Amortization                                             1,951,571        1,716,058
 Total components of Net Cost of Operations that will not require
 or generate resources in the current period                             1,794,474        1,792,407
 Net Cost of Operations                                                $98,995,427      $96,440,827




                                                        28
